   DEPARTMENT OF JUSTICE EQUITABLE SHARING
PROGRAM ACTIVITIES AT THE KIMBLE COUNTY, TEXAS
              SHERIFF’S OFFICE




           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


           Audit Report GR-60-10-002
                 February 2010
      AUDIT OF THE KIMBLE COUNTY SHERIFF’S OFFICE
        EQUITABLE SHARING PROGRAM ACTIVITIES
                 KIMBLE COUNTY, TEXAS

                        EXECUTIVE SUMMARY

       The purpose of the Department of Justice (DOJ) asset forfeiture
program is to deter crime by depriving criminals of the profits and proceeds
of illegal activities while enhancing cooperation among federal, state, and
local law enforcement agencies. State and local law enforcement agencies
that participate in a federal seizure of property and funds may receive a
portion of the proceeds, or an equitable share of the forfeiture, to use
generally for law enforcement purposes. The Criminal Division’s Asset
Forfeiture and Money Laundering Section oversees the DOJ asset forfeiture
program.

       The DOJ Office of the Inspector General conducted an audit of the
Kimble County Sheriff’s Office’s (KCSO) participation in the DOJ asset
forfeiture program during the agency’s fiscal year 2008. During the audit
period, the KCSO received $315,062 and spent $374,453 of equitable
sharing funds. Our audit found that the KCSO primarily spent these funds
to enhance and support law enforcement capabilities. However, we found
weaknesses with reporting of property purchased with equitable sharing
funds and transferred to other law enforcement agencies, and in inventory
procedures for property purchased with equitable sharing funds. We also
identified $15,500 in questioned costs related to an expenditure that lacked
proper support and $12,509 in questioned costs for an expenditure we
consider partially allowable under program guidelines. As a result, the
audit provided the following recommendations to the Criminal Division,
which oversees the use of equitable sharing funds by recipients.

  •    Ensure that the KCSO implements controls to properly complete
       equitable sharing request forms.

  •    Ensure that the KCSO implements controls to properly document
       transfers to other law enforcement agencies.

  •    Remedy the $15,500 in unsupported expenditures for training
       sponsorship and attendance fees.

  •    Remedy the $12,509 in questioned costs related to partially
       unallowable equipment purchase.




                                      i
